<html>
<title> - RECOVERY ACT PROJECT TO REPLACE THE SOCIAL SECURITY ADMINISTRATION'S NATIONAL COMPUTER CENTER</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                  RECOVERY ACT PROJECT TO REPLACE THE
                    SOCIAL SECURITY ADMINISTRATION'S
                        NATIONAL COMPUTER CENTER

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON WAYS AND MEANS

                    SUBCOMMITTEE ON SOCIAL SECURITY

                             JOINT WITH THE

                    COMMITTEE ON TRANSPORTATION AND
                             INFRASTRUCTURE

                 SUBCOMMITTEE ON ECONOMIC DEVELOPMENT,
               PUBLIC BUILDINGS, AND EMERGENCY MANAGEMENT

                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 15, 2009

                               __________

                           Serial No. 111-39

                               __________

         Printed for the use of the Committee on Ways and Means



                  U.S. GOVERNMENT PRINTING OFFICE
63-031                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0463746b44677177706c6168742a676b692a">[email&#160;protected]</a>  


                      COMMITTEE ON WAYS AND MEANS

                 CHARLES B. RANGEL, New York, Chairman

FORTNEY PETE STARK, California       DAVE CAMP, Michigan
SANDER M. LEVIN, Michigan            WALLY HERGER, California
JIM McDERMOTT, Washington            SAM JOHNSON, Texas
JOHN LEWIS, Georgia                  KEVIN BRADY, Texas
RICHARD E. NEAL, Massachusetts       PAUL RYAN, Wisconsin
JOHN S. TANNER, Tennessee            ERIC CANTOR, Virginia
XAVIER BECERRA, California           JOHN LINDER, Georgia
LLOYD DOGGETT, Texas                 DEVIN NUNES, California
EARL POMEROY, North Dakota           PATRICK J. TIBERI, Ohio
MIKE THOMPSON, California            OHIO GINNY BROWN-WAITE, Florida
JOHN B. LARSON, Connecticut          GEOFF DAVIS, Kentucky
EARL BLUMENAUER, Oregon              DAVID G. REICHERT, Washington
RON KIND, Wisconsin                  CHARLES W. BOUSTANY, Jr., 
BILL PASCRELL, JR., New Jersey       Louisiana
SHELLEY BERKLEY, Nevada              DEAN HELLER, Nevada
JOSEPH CROWLEY, New York             PETER J. ROSKAM, Illinois
CHRIS VAN HOLLEN, Maryland
KENDRICK B. MEEK, Florida
ALLYSON Y. SCHWARTZ, Pennsylvania
ARTUR DAVIS, Alabama
DANNY K. DAVIS, Illinois
BOB ETHERIDGE, North Carolina
LINDA T. SANCHEZ, California
BRIAN HIGGINS, New York
JOHN A. YARMUTH, Kentucky

             Janice Mays, Chief Counsel and Staff Director

                   Jon Traub, Minority Staff Director

                                 ______

                    SUBCOMMITTEE ON SOCIAL SECURITY

                  JOHN S. TANNER, Tennessee, Chairman

EARL POMEROY, North Dakota           SAM JOHNSON, Texas, Ranking Member
ALLYSON Y. SCHWARTZ, Pennsylvania    KEVIN BRADY, Texas
XAVIER BECERRA, California           PATRICK J. TIBERI, Ohio
LLOYD DOGGETT, Texas                 GINNY BROWN-WAITE, Florida
RON KIND, Wisconsin                  DAVID G. REICHERT, Washington
JOSEPH CROWLEY, New York
LINDA T. SANCHEZ, California
JOHN A. YARMUTH, Kentucky
             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DEFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LOBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
ELLEN O. TAUSCHER, California        TODD RUSSELL PLATTS, Pennsylvania
LEONARD L. BOSWELL, Iowa             SAM GRAVES, Missouri
TIM HOLDEN, Pennsylvania             BILL SHUSTER, Pennsylvania
BRIAN BAIRD, Washington              JOHN BOOZMAN, Arkansas
RICK LARSEN, Washington              SHELLEY MOORE CAPITO, West 
MICHAEL E. CAPUANO, Massachusetts    Virginia
TIMOTHY H. BISHOP, New York          JIM GERLACH, Pennsylvania
MICHAEL H. MICHAUD, Maine            MARIO DIAZ-BALART, Florida
RUSS CARNAHAN, Missouri              CHARLES W. DENT, Pennsylvania
GRACE F. NAPOLITANO, California      CONNIE MACK, Florida
DANIEL LIPINSKI, Illinois            LYNN A WESTMORELAND, Georgia
MAZIE K. HIRONO, Hawaii              JEAN SCHMIDT, Ohio
JASON ALTMIRE, Pennsylvania          CANDICE S. MILLER, Michigan
TIMOTHY J. WALZ, Minnesota           MARY FALLIN, Oklahoma
HEATH SHULER, North Carolina         VERN BUCHANAN, Florida
MICHAEL A. ARCURI, New York          ROBERT E. LATTA, Ohio
HARRY E. MITCHELL, Arizona           BRETT GUTHRIE, Kentucky
CHRISTOPHER P. CARNEY, Pennsylvania  ANH ``JOSEPH'' CAO, Louisiana
JOHN J. HALL, New York               AARON SCHOCK, Illinois
STEVE KAGEN, Wisconsin               PETE OLSON, Texas
STEVE COHEN, Tennessee
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
PARKER GRIFFITH, Alabama
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico
                  SUBCOMMITTEE ON ECONOMIC DEVELOPMENT

               PUBLIC BUILDINGS AND EMERGENCY MANAGEMENT

           ELEANOR HOLMES NORTON, District of Columbia, Chair

BETSY MARKEY, Colorado               MARIO DIAZ-BALART, Florida
MICHAEL H. MICHAUD, Maine            TIMOTHY V. JOHNSON, Illinois
HEATH SHULER, North Carolina         SAM GRAVES, Missouri
PARKER GRIFFITH, Alabama             SHELLEY MOORE CAPITO, West 
RUSS CARNAHAN, Missouri              Virginia
TIMOTHY J. WALZ, Minnesota           MARY FALLIN, Oklahoma
MICHAEL A. ARCURI, New York          BRETT GUTHRIE, Kentucky
CHRISTOPHER P. CARNEY,                 ANH ``JOSEPH'' CAO, Louisiana
Pennsylvania, Vice Chair             PETE OLSON, Texas
DONNA F. EDWARDS, Maryland
THOMAS S. P. PERRIELLO, Virginia
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Ways and Means are also published 
in electronic form. The printed hearing record remains the official 
version. Because electronic submissions are used to prepare both 
printed and electronic versions of the hearing record, the process of 
converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                                                                   Page

Advisory of December 9, 2009 announcing the hearing..............     2

                               WITNESSES

Michael Gallagher, Deputy Commissioner, Office of Budget, Finance 
  and Management, Social Security Administration.................    14
Rob Hewell, Regional Commissioner, Mid-Atlantic Region, Public 
  Buildings Service, General Services Administration, 
  Philadelphia, Pennsylvania.....................................    20
The Honorable Patrick P. O'Carroll, Inspector General, Social 
  Security Administration........................................    25

                       SUBMISSION FOR THE RECORD

Questions for the Record.........................................    45


                  RECOVERY ACT PROJECT TO REPLACE THE
                    SOCIAL SECURITY ADMINISTRATION'S
                        NATIONAL COMPUTER CENTER

                              ----------                              


                       TUESDAY, DECEMBER 15, 2009

                     U.S. House of Representatives,
                               Committee on Ways and Means,
                           Subcommittee on Social Security,
                                             joint with the
            Committee on Transportation and Infrastructure,
                      Subcommittee on Economic Development,
                 Public Buildings and Emergency Management,
                                                    Washington, DC.

    The Subcommittees met, pursuant to notice, at 9:31 a.m. in 
room 1100 Longworth House Office Building, the Hon. John Tanner 
[Chairman of the Subcommittee on Social Security], presiding.
    [The advisory announcing the hearing follows:]

ADVISORY FROM THE COMMITTEE ON WAYS AND MEANS
    Chairman Tanner and Chairwoman Holmes-Norton Announce a Joint 
Oversight Hearing on the Recovery Act Project to Replace the Social 
Security Administration's National Computer Center

    December 9, 2009

    Congressman John S. Tanner (D-TN), Chairman of the House Ways and 
Means Committee Subcommittee on Social Security, and Delegate Eleanor 
Holmes-Norton (D-DC), Chairwoman of the House Committee on 
Transportation and Infrastructure Subcommittee on Economic Development, 
Public Buildings, and Emergency Management, announced today that the 
Subcommittees will hold a joint oversight hearing on the progress made 
to replace the Social Security Administration's National Computer 
Center. The hearing will take place on Tuesday, December 15, 2009 in 
the main Ways and Means Committee hearing room 1100 Longworth House 
Office Building, beginning at 9:30 a.m.
      
    In view of the limited time available to hear witnesses, oral 
testimony at this hearing will be from invited witnesses only. However, 
any individual or organization not scheduled for an oral appearance may 
submit a written statement for consideration by the Committee and for 
inclusion in the printed record of the hearing.
      

BACKGROUND:

      
    In February, Congress passed and the President signed the American 
Recovery and Reinvestment Act of 2009 (ARRA, Pub. L. 111-5), which 
provided $500 million for the Social Security Administration (SSA) to 
begin the process of replacing its national computer processing and 
data storage facility, the National Computer Center (NCC). This amount 
is expected to cover the cost of building a new facility and part of 
the cost of equipping it. Replacement of the NCC is the single largest 
building project funded under the Recovery Act.
      
    The NCC houses 450 million records of Americans' earnings and 
benefit data for almost 56 million beneficiaries. It performs a billion 
electronic transactions annually in the administration of benefits and 
data-matching agreements with other federal, state and local agencies. 
As reliance on electronic processing and technology has grown, the 
ability of the current NCC to function effectively is deteriorating. 
The NCC is nearly thirty years old and the building in which it is 
housed is nearing the end of its useful physical life. The NCC's 
capacity is inadequate to meet anticipated future needs, and 
deterioration of the facility is posing increasing risks to SSA 
operations.
      
    For these reasons, Congress provided SSA with necessary funds to 
begin the process of constructing and equipping a new facility. The 
General Services Administration (GSA) is managing the process of 
locating, designing and constructing the building which will house the 
new data center. In addition, the SSA Office of Inspector General (OIG) 
was assigned additional oversight duties under the Recovery Act, 
including oversight of the NCC project.
      
    SSA also has completed construction of and has transferred some 
computer operations to a secondary data center in North Carolina. This 
secondary data center was initially designed to support a portion of 
the work done at the NCC, but is now being developed as a comprehensive 
backup facility in case of failure of the NCC. It is unclear whether 
this secondary center will be fully operational in time, or if it will 
have sufficient capacity, to provide full backup support in the event 
of failure of SSA's primary data processing facility.
      
    In April, the Subcommittee on Social Security held a hearing on the 
initial plans and progress on this complex project. In May, the 
Subcommittee on Economic Development, Public Buildings, and Emergency 
Management also held a hearing on GSA's plans to execute the Recovery 
Act.
    This hearing will continue Congressional oversight of this critical 
project. It will provide a general update on the status of the project, 
including an examination of the decisions made thus far, and on the 
planning and next steps being taken by SSA and GSA. It will also 
provide an update on the agencies' plans for avoiding delays in the 
project's completion, and contingency plans in the event of 
catastrophic failure of the existing NCC prior to completion of the new 
facility.
      
    In announcing the hearing, Chairman John Tanner (D-TN) stated, 
``Many of us strongly support the unprecedented transparency 
requirements for projects in the American Recovery and Reinvestment 
Act, including the construction of a new and updated Social Security 
data processing facility. This investment is urgently needed to ensure 
continued smooth operation of a program that is so crucial to 56 
million Americans. Our subcommittee is committed to making sure that 
the decisions made in pursuit of replacing the Social Security 
Administration's (SSA's) primary computing facility are fiscally and 
technically sound and help continue SSA's improvements in service to 
beneficiaries and other taxpayers.''
      
    Chairwoman Eleanor Holmes-Norton (D-DC) stated, ``I am pleased to 
hold this joint hearing on the General Services Administration's SSA 
primary computing center. Our committee has held four stimulus tracking 
hearings and believes that focusing on this project, with its many 
unique environmental and technical aspects, will serve as an excellent 
way to drill down into one project to highlight and explore the process 
and progress across the GSA portfolio.''
      

FOCUS OF THE HEARING:

      
    The hearing will focus on the progress to date of SSA and GSA in 
using ARRA resources to replace the NCC, including the development of 
requirements for the new center, and the site selection process and 
criteria. The hearing will also evaluate SSA's and GSA's management of 
the potential for unexpected cost and delay. Finally, the hearing will 
examine SSA's preparedness in case of catastrophic failure of the 
existing NCC, including the role of the new data support center in 
North Carolina.
      

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Please Note: Any person(s) and/or organization(s) wishing to submit 
for the hearing record must follow the appropriate link on the hearing 
page of the Committee website and complete the informational forms. 
From the Committee homepage, http://democrats.waysandmeans.house.gov, 
select ``Committee Hearings''. Select the hearing for which you would 
like to submit, and click on the link entitled, ``Click here to provide 
a submission for the record.'' Once you have followed the online 
instructions, complete all informational forms and click ``submit'' on 
the final page. ATTACH your submission as a Word or WordPerfect 
document, in compliance with the formatting requirements listed below, 
by close of business Tuesday, December 29, 2009. Finally, please note 
that due to the change in House mail policy, the U.S. Capitol Police 
will refuse sealed-package deliveries to all House Office Buildings. 
For questions, or if you encounter technical problems, please call 
(202) 225-1721.
      

FORMATTING REQUIREMENTS:

      
    The Committee relies on electronic submissions for printing the 
official hearing record. As always, submissions will be included in the 
record according to the discretion of the Committee. The Committee will 
not alter the content of your submission, but we reserve the right to 
format it according to our guidelines. Any submission provided to the 
Committee by a witness, any supplementary materials submitted for the 
printed record, and any written comments in response to a request for 
written comments must conform to the guidelines listed below. Any 
submission or supplementary item not in compliance with these 
guidelines will not be printed, but will be maintained in the Committee 
files for review and use by the Committee.
      
    1. All submissions and supplementary materials must be provided in 
Word or WordPerfect format and MUST NOT exceed a total of 10 pages, 
including attachments. Witnesses and submitters are advised that the 
Committee relies on electronic submissions for printing the official 
hearing record.
      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
      
    3. All submissions must include a list of all clients, persons, 
and/or organizations on whose behalf the witness appears. A 
supplemental sheet must accompany each submission listing the name, 
company, address, telephone, and fax numbers of each witness.
      
    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TTD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.
      
    Note: All Committee advisories and news releases are available on 
the World Wide Web at http://democrats.waysandmeans.house.gov.

                                 <F-dash>

    Chairman TANNER. We will come to order. I am informed that 
Mr. Johnson is entering the premises now. I have been assured--
we have a slight time problem here--that he has no objection to 
us going ahead. I know Ms. Holmes Norton's Ranking Member, has 
previously told us they would be running a little late.
    We will get started with our opening statements and then by 
that time hopefully Mr. Johnson will arrive.
    This is a joint oversight hearing that we have called. I 
want to welcome warmly Chairwoman Holmes Norton, who is our 
colleague on the Subcommittee on Economic Development, Public 
Buildings and Emergency Management, the House Committee 
overseeing GSA.
    I told her a while ago she may be the only one in Congress 
who is home for Christmas. The rest of us will be in our 
dreams, I am afraid.
    This is a critical project. It is the largest and one of 
the most needed construction projects funded by the American 
Recovery and Reinvestment Act.
    This is the second hearing the Subcommittee on Social 
Security has had concerning the project. I want to welcome 
again Chairwoman Holmes Norton and thank her for all her work 
in this regard.
    We have some real questions. I am not going to read all of 
my opening statement because I want to give this panel an 
opportunity and Ms. Holmes Norton an opportunity to talk about 
their interest in it.
    I want to know why we are in such a time crunch here and 
what has happened. I want to ask about some of the decisions 
that have been made and why they were made as they were.
    We are up against a time line here because in January I am 
told we will have a decision made on a location for the new 
data center.
    I hope we have a productive hearing this morning. I think 
we will.
    [The prepared statement of the Honorable John Tanner 
follows:]
[GRAPHIC] [TIFF OMITTED] T3031.001


                                 <F-dash>

    Ms. Holmes Norton, do you have an opening statement?
    Ms. NORTON. Thank you, Mr. Chairman. Mr. Chairman, I am 
going to simply synopsize my opening remarks and ask that my 
full statement be placed into the record.
    I want only to say how pleased I am to sit with Chairman 
John Tanner and with the Ways and Means Committee in what 
amounts to a partnership between two agencies, General Services 
Administration, which comes under the jurisdiction of my 
Subcommittee, and of course, the Social Security Subcommittee.
    To have what amounts to a discussion of something that 
rarely happens in the Federal Government, where an agency gets 
a direct appropriation to do construction.
    The GSA is the Federal Government's expert construction and 
real estate agency. When it does, the agency which usually does 
not have particular expertise in construction, turns to the 
GSA, and the GSA is pleased that the Recovery Act has provided 
half a billion dollars to the Social Security Administration 
for a new National Computer Center, which we understand is very 
much needed.
    You are in an overloaded facility. You are in an energy 
inefficient facility which is costing the taxpayers needless 
dollars.
    I also want to say how important this large and important 
center is for job creation, which is an important element of 
the stimulus package. We are sure in Maryland where this is to 
be built and in the surrounding area, that part of the mission 
of these funds will be fulfilled.
    I thank you very much, Chairman Tanner. I yield back.
    [The prepared statement of the Honorable Eleanor Holmes 
Norton follows:]

[GRAPHIC] [TIFF OMITTED] T3031.002

[GRAPHIC] [TIFF OMITTED] T3031.003


                                 <F-dash>

    Chairman TANNER. Thank you, Madam Chairman.
    Mr. Johnson has joined us. Before I recognize him, I would 
like to ask unanimous consent that all opening statements be 
entered in the record in their entirety.
    [The prepared statement of the Honorable Mario Diaz-Balart 
follows:]

[GRAPHIC] [TIFF OMITTED] T3031.004


                                 <F-dash>

    [The prepared statement of the Honorable Betsy Markey 
follows:]

[GRAPHIC] [TIFF OMITTED] T3031.005


                                 <F-dash>

    Chairman TANNER. Mr. Johnson?
    Mr. JOHNSON of Texas. Thank you, Mr. Chairman. I want to 
thank you for holding this important hearing and welcome our 
witnesses.
    Before I turn to the hearing subject, in light of the 
Social Security Subcommittee Chairman's recent retirement 
announcement, I want to take advantage of this opportunity to 
personally acknowledge and thank the Chairman for his long and 
distinguished service to this nation.
    Chairman TANNER. Thank you.
    Mr. JOHNSON of Texas. Mr. Chairman, the American people 
have truly benefitted from your leadership and I am proud to 
call you a good friend.
    Chairman TANNER. Thank you, sir.
    Mr. JOHNSON of Texas. With about a year to go, I still look 
forward to working with you on this Subcommittee and thank you 
for all you have done. God bless you in whatever you try to do 
in the future.
    Turning to the focus of today's hearing, Social Security is 
at a critical crossroads. While this hearing may seem rather 
technical in nature, at heart, it is about Social Security 
being able to operate day in and day out for the American 
people.
    As our population ages, more workers and retirees are 
depending on Social Security's essential benefits and services 
that they paid for throughout their lives with their hard 
earned wages.
    Social Security's ability to deliver those services depends 
on its use of modern, secure technology that they and the 
American people can rely on. Yet Social Security's 30 year old 
National Computer Center that allows the Agency to process 
applications, pay benefits and store secure data for most U.S. 
workers is on its last legs.
    That is why Congress has given Social Security $500 million 
to build a new 21st Century center.
    In the meantime, however, should the current center fail, 
Social Security's recovery plan falls short. Currently, it 
would take a week to restart only some of the system's 
operations, and even then Social Security will only be 
operating at a third of its current level.
    Social Security reports it is making progress on plans to 
fully restore service delivery and protect Americans' personal 
information in the event of a major failure by bringing on line 
its back-up data center in North Carolina early next year.
    I look forward to hearing from Social Security in terms of 
what it is doing to ensure there is minimum disruption in 
service to the American people in the event of a system failure 
and the progress it is making to bring its North Carolina 
center on line.
    Replacing Social Security's outdated National Computer 
Center with a new support center is critical to maintaining and 
improving service delivery.
    Taxpayers are investing $500 million in this project. They 
rightfully deserve to know their investment will produce the 
right state-of-the-art center on time and within budget. It 
should not take seven years as we have been told.
    I thank the witnesses for joining us today and presenting 
their expert testimony and I yield back the balance of my time.
    [The prepared statement of the Honorable Sam Johnson 
follows:]

[GRAPHIC] [TIFF OMITTED] T3031.006

[GRAPHIC] [TIFF OMITTED] T3031.007


                                 <F-dash>

    Chairman TANNER. Thank you, Mr. Johnson. Without objection, 
we will put all the opening statements in the record in their 
entirety.
    Ms. Brown-Waite, you are recognized.
    Ms. BROWN-WAITE. Thank you very much, Mr. Chairman.
    I come from Florida and I represent a huge number of people 
on Social Security. I do not think I am number one in the 
nation. I think I am number two in the nation with people on 
Social Security. I know on Medicare, I am number one.
    One of the things that I believe taxpayers really bristle 
at is the slowness with which Government responds. The Social 
Security Administration--I know in previous years you have not 
had the funding that you needed. You have the funding now and 
to say it would take seven years to build is a little 
frightening, quite honestly.
    It is a disappointment to taxpayers and to those who have 
paid into Social Security.
    I am looking forward to hearing your testimony on what is 
being done to expedite the process while still being able to 
process those very necessary Social Security payments to 
individuals.
    I know that most people here did not come to hear us speak 
but rather to hear you speak, so with that, Mr. Chairman, I am 
going to yield back the balance of my time.
    Chairman TANNER. Thank you. We will have unanimous consent 
that all of the witnesses' statements be included in the record 
in their entirety, and we will ask the witnesses to please try 
to hold their statements to five minutes.
    Before we begin, I understand, Mr. Gray, you will be 
retiring and this is your last appearance before the 
Subcommittee on Social Security. Thirty-three years. Your 
service has been recognized by the Commissioners, Presidents 
and all of your peers, and we thank you.
    As Mr. Johnson was saying nice things about me, I am 
reminded of the fellow that was lamenting the fact that he 
would not be able to attend his own funeral because there would 
be so many nice things said about him, he said but I am going 
to miss it by three days.
    [Laughter.]
    Chairman TANNER. Mr. Gallagher, you are recognized for five 
minutes, sir.

STATEMENT OF MICHAEL GALLAGHER, DEPUTY COMMISSIONER, OFFICE OF 
   BUDGET, FINANCE AND MANAGEMENT, ACCOMPANIED BY BILL GRAY, 
DEPUTY COMMISSIONER FOR SYSTEMS, SOCIAL SECURITY ADMINISTRATION

    Mr. GALLAGHER. Thank you. Chairman Tanner, Chairwoman 
Holmes Norton, Ranking Members Johnson and Diaz-Balart, and 
Members of the Subcommittees, good morning.
    I am Michael Gallagher, Deputy Commissioner for Social 
Security's Office of Budget, Finance and Management, and the 
Senior Accountable Official for Recovery Act funds.
    I am joined here today by Bill Gray, Deputy Commissioner 
for Systems. I am also pleased to be joined by Pat O'Carroll, 
our Inspector General. We work closely with his office as it 
plays a vital role in ensuring the thoroughness of our decision 
making and actions.
    On behalf of Commissioner Michael J. Astrue, I thank you 
for the opportunity to update you on the progress we have made 
working with the General Services Administration (GSA) in 
replacing our outdated National Computer Center (NCC) using the 
$500 million appropriated to us in the Recovery Act.
    First, we want to thank you for your prompt response after 
we informed you of our need for a new data center. Our new data 
center is needed to ensure that we can continue to perform our 
vital services for the American public.
    We collect benefit, earnings, and demographic information 
on virtually every American. Over the last decade, we have 
moved from a paper-based system to electronic processing of our 
core workloads.
    Currently, over 95 percent of our work is electronic. As 
new benefit applications continue to flood our Agency due to 
the economic downturn and the aging of the baby boomers, we are 
handling an all-time high of over 75 million electronic 
transactions per day. Without technology, we would be unable to 
manage this onslaught of work.
    In order to ensure that we get our technology right, we 
continually examine our needs and the available technology to 
fit those needs, not just today but in the future.
    For example, we have established an advisory committee of 
world-class IT experts from top universities, successful 
companies, and other agencies for the best technical advice to 
guide our future use of technology.
    Internally, we have strengthened the role and functions of 
our Chief Information Officer (CIO) to ensure that we have a 
transparent and long-term vision and a process is in place to 
make use of leading edge technologies.
    One of the three issues you identified for the hearing 
today was our preparedness in case of a catastrophic failure of 
the NCC, including the role of a new supplemental center in 
North Carolina.
    Let me briefly address that issue now. Currently, if our 
NCC went down, we would take our back-up tapes to a commercial 
hot site to recover data. This process would take seven days 
and would provide only about 25 to 30 percent of our capacity 
to run our most critical applications that we use to issue 
Social Security numbers and administer benefits.
    To remedy this, we established our North Carolina facility 
to act as both a co-processing center and as a disaster 
recovery resource. In January 2009, we took possession of the 
North Carolina facility and began equipping it to provide the 
day-to-day operations for about half of our systems.
    In May 2009, the North Carolina facility began limited 
production operations. Earlier this year, the Commissioner 
accelerated the purchase and installation of additional 
hardware and software for North Carolina to support our 
critical claims and data processing systems currently housed in 
the National Computer Center.
    In January 2010, next month, this equipment will be fully 
operational and will recover all of our critical systems from 
the back-up tapes in seven days instead of using the commercial 
hot site.
    By October 2010, we will be able to recover the entire NCC 
production operations in the North Carolina facility. By 2012, 
we will be able to restore all production in 24 hours and not 
seven days. Thus, we have a sound plan to provide continued 
service to the American people in the event of a catastrophic 
failure in the NCC.
    The other two issues identified for the hearing today 
relate to our efforts to construct and equip a new state-of-
the-art data center on budget and on time with the right site 
and building criteria.
    As these two issues are interrelated, I would like to 
address them together. To begin the process of developing the 
requirements for the new data center, SSA and GSA assembled a 
project team of our most seasoned technical experts, including 
architects, engineers and security and systems experts. We 
placed a senior executive with substantial experience in site 
selection and project management in the lead of our effort.
    The team is adhering to all applicable procurement rules 
and is engaged in a rigorous comprehensive and critical review 
of our needs, business processes and available technology.
    We are following best practices for site selection, data 
center design and construction, as well as green technology and 
security requirements.
    We are consulting with industry experts and our efforts 
have included site visits to leading edge data centers in both 
the public and private sectors.
    In August 2009, GSA solicited expressions of interest to 
obtain a site for the new data center and is reviewing possible 
sites along with SSA.
    Although GSA possesses the legal authority for SSA to lease 
or purchase real estate and award contracts for the building 
construction, our relationship with GSA is one of true 
partnership. Working together, we are pleased to report that we 
are on time and on budget.
    We provide regular updates directly to Congress. GSA and 
SSA meet quarterly with staff members from the Social Security 
Subcommittee to brief them on our progress towards constructing 
this important data center, and we provide written monthly 
updates to Congressional leadership on our progress.
    Finally, Recovery.gov, our own Web site, ensures 
transparency by posting weekly updated information about our 
progress in meeting plan objectives including costs and 
milestones.
    None of this progress would have been possible without the 
support of these two Subcommittees. Thank you. I would be 
pleased to answer any questions.
    [The prepared statement of Michael Gallagher follows:]

            Prepared Statement of Michael Gallagher, Deputy
            Commissioner for Budget, Finance, and Management

    Chairman Tanner, Chairwoman Norton, Ranking Members Johnson and 
Diaz-Balart, and Members of the Subcommittees:
    Good morning. I am Michael Gallagher, Deputy Commissioner for 
Social Security's Office of Budget, Finance, and Management and the 
Senior Accountable Official for Recovery Act funds. I am joined here 
today by Bill Gray, Deputy Commissioner for Systems. On behalf of 
Commissioner Michael J. Astrue, I thank you for the opportunity to 
update you on the progress we have made working with the General 
Services Administration (GSA) in replacing our outdated National 
Computer Center (NCC), using the $500 million appropriated to us in the 
Recovery Act. Our new data center, the National Support Center (NSC), 
will replace our 30-year-old NCC. This new facility will be state-of-
the-art and incorporate green building technology.
    Before I explain our process for replacing the NCC and the 
safeguards we have established to deal with unexpected cost, delay, and 
the risk of catastrophic failure of the NCC, I will briefly describe 
the role and importance of information technology (IT) to the services 
we provide to the American public. An understanding of the ever-
increasing role IT plays in our processes will put our needs for robust 
and reliable data repositories in perspective.
    Over the past three years, we have made a concerted effort to 
improve our service delivery by taking advantage of modern technology 
and the Internet, and have made fundamental changes in our use of IT. 
We have taken to heart the recommendations of the 2007 report by the 
National Academy of Sciences to modernize our IT infrastructure. We 
have established an advisory committee of world-class IT experts to 
guide our future use of IT, and we also have strengthened the role and 
functions of our Chief Information Officer (CIO).

Technology Is Crucial to the Services We Provide

    We maintain benefit, earnings, and demographic information on 
virtually every American. Over the last decade, we have moved from a 
paper-based system to electronic processing of our core workloads. 
Currently, over 95 percent of our work is electronic. As new benefit 
applications continue to flood our agency due to the economic downturn 
and the aging of the baby boomers, we are handling an all-time high of 
over 75 million electronic transactions per day. Without technology, we 
would be unable to manage this onslaught of work. Technology has 
allowed us to provide faster and more accurate service to the American 
public.
    For instance, technology will allow us to fast-track about 140,000 
disability applications this year, and we will award benefits, when 
appropriate, in those cases in a matter of days. Our new electronic 
disability case analysis tool, eCat, is improving the consistency and 
quality of our disability decisions.
    In addition, we maintain claims information in electronic folders, 
which allows us to move work to available resources and respond to 
catastrophic events like Hurricane Katrina. We maintain one of the 
world's largest repositories of imaged medical evidence, storing over 
400 million medical records, to which we add nearly 3 million new 
records each week. We exchange over 2 billion data files annually with 
public and private entities for benefit management and homeland 
security purposes.
    We have embraced the need for more and better on-line services. 
With the launch of our new on-line retirement estimator, benefit 
application, and Medicare low-income subsidy application, we have 
emerged as the Federal Government's leader in on-line services. The 
public rated these three services the highest in the University of 
Michigan's satisfaction surveys. These new on-line service options have 
allowed us to weather the increased workloads due to baby boomers and 
the economic downturn without substantially increasing waiting times.
    We are not resting on our laurels. In 2010, we will introduce a 
Medicare-only on-line application, an improved disability application, 
and the first Federal Government Spanish-language on-line application.
    To help us achieve our IT vision for the future, we have 
established an advisory committee of world-class IT experts to reach 
outside of the agency for the best technical advice, which we use to 
guide our future use of technology. And internally, we have 
strengthened the role and functions of our Chief Information Officer 
(CIO) to ensure that we have a long-term vision, and the processes in 
place to make use of leading edge technologies. Our Office of the Chief 
Information Officer now has functional responsibility for: (1) Open 
Government to ensure transparency in our decisions, improving 
communication with the public, and providing authentication solutions 
that will create additional opportunities over the Internet; (2) 
Investment Management to oversee the agency's IT investment process; 
(3) Innovation to serve as our ``think tank'' for emerging 
technologies; (4) Vision and Strategy, so as to define our technology 
vision and establishing a long-term, architectural plan, and (5) 
Information Security, to develop a policy framework that effectively 
manages risk, and safeguards the personally identifiable information 
with which we are entrusted .
    To protect our sensitive data and continue to enhance our 
electronic services, we have worked with you and the Administration to 
address our need for data centers that support the rapidly expanding 
demand for electronic services. We first apprised you of this need in 
July 2008, and you quickly took action to allow us to replace our aging 
facility that is running out of capacity. We are grateful for your 
prompt response.

Second Support Center SSC) Necessary for Our Electronic Environment

    For years, we have contracted with a commercial hot site to provide 
us with the ability to recover our data in the event of a disaster. As 
our use of technology has grown, this commercial site has become a less 
viable disaster recovery option. With nearly all of our business 
processes fully electronic, if the NCC were to go down, we would come 
to a near standstill while we recover our systems. If our NCC went down 
tomorrow, we would need to take backup our tapes to the commercial hot 
site in order to recover these data. This process would take 7 days and 
would provide only about 25-30 percent of our capacity to run the 
critical applications that we use to issue Social Security numbers and 
administer benefits. To remedy this issue, we sought a second support 
center, geographically separate from the NCC, now located in North 
Carolina.
    The initial vision of the second support center (SSC) was to serve 
as a co-processing center on a daily basis and back up the NCC in the 
event of a disaster or catastrophic systems failure. In the last year, 
we have accelerated and expanded the role of the SSC to address the 
vulnerabilities of our 30-year old NCC.
    In January 2009, we took possession of the SSC and began equipping 
it to function as a co-processing center that will provide the day-to-
day operations for about half of our systems. It began production 
operations in May 2009 and now maintains medical images for the 
electronic disability folders and fully-redundant communications 
connections to our offices, to the Internet, and the NCC. Moving these 
workloads to the SSC reduced our disaster exposure from systems failure 
in the NCC. In addition, maintaining medical records at the SSC 
minimizes the down time of our disability systems.
    By 2012, we will synchronize data between both centers every hour. 
In the event of a disaster, we will be able to use these data to 
restore services within 24 hours. These data will be current to within 
one hour prior to the disaster.
    Recognizing that the timeframes for fully synchronizing the two 
centers would still leave us dependent on the commercial hot site in 
the event of a disaster through 2012, the Commissioner decided to 
accelerate the purchase and installation of the additional hardware and 
software necessary to support our critical claims and data processing 
systems housed in the NCC. This equipment will be fully operational by 
January, 2010, and a major protection for the American public, because 
we will be capable of recovering all our critical systems from the 
backup tapes at the SSC, instead of using the commercial hot site. 
While it would still take us 7 days to restore services, once services 
are up and running, we would be able to handle all critical claims and 
data processing workloads. In the near future, we will perform a 
disaster recovery exercise in the SSC to fully test our ability to 
recover completely.
    We are currently adding the facility infrastructure to the SSC to 
support important NCC workloads that are not critical to the payment of 
benefits. These workloads include management information, forecasting, 
cyclical, regional, and end-user developed applications. By October 
2010, we will have the infrastructure needed to recover these services 
in the SSC. With these changes, we will be able to recover the entire 
NCC production operations in the SSC. (Please see the attached chart 
for additional details about our NCC disaster recovery capability 
timeline.)

National Support Center Project Is on Track

    Our rapidly growing electronic business processes and service 
channels, as well as the tragic events of September 11, 2001, 
underscored the critical need for the SSC. At the same time we decided 
to pursue the SSC, we continued to make improvements to the NCC to deal 
with our growing workloads.
    The NCC was designed over 30 years ago. Technology has changed 
radically since then, and the NCC's infrastructure, including the 
building's cooling, electrical, and fire suppression systems, is not 
sufficient to fully accommodate current technologies. As a result, the 
infrastructure systems will not be capable of accommodating the 
information technology necessary to handle our increasing volumes of 
work, our new and expanded responsibilities, and our new ways of doing 
business. Our transition to full electronic processing of our core 
workloads and the growth of electronic service delivery over the last 
decade resulted in a dramatic increase in our need for data storage and 
network capacity. While we have modernized our hardware, we are facing 
finite limitations on our ability to distribute electrical power to our 
servers and mainframes.
    Updated servers and mainframes have significant electrical 
requirements. Until recently, each server required only one power 
supply to operate; now, a server requires two to four power supplies to 
function, which the NCC can accommodate at this time. The current 
facility's electrical panels will not accommodate the more than four 
power supplies that we will need to run servers in the future.
    We have undertaken important steps to continue the services of the 
current facility until the new data center is operating. As the NCC has 
aged, we have continuously upgraded and repaired structural, 
electrical, and data processing capabilities. Incrementally upgrading a 
facility of this kind is a best industry practice for maintaining 
facilities beyond their life cycle. We must incrementally repair these 
infrastructure systems because we cannot totally replace them in the 
existing NCC. To replace them, we would have to shut down the building 
completely for an extended period of weeks or months. Such a shutdown 
would result in an unacceptably long interruption of service to the 
public.
    We considered the possibility of renovating the existing building; 
however, renovations of this magnitude would require us to vacate the 
building and design and lease a facility to temporarily house the data 
and employees. The expense of doing this would be almost as costly as 
simply building a new, up-to-date data center and would create a risk 
of a major interruption in service and require relocation twice, 
incurring significant costs.
    Even if we could overcome the obstacles to repair and upgrade the 
NCC and its infrastructure, we would still have a building designed 
around a 1970s mainframe environment. In the seventies, redundant 
electrical, heating, and cooling systems were not state-of-the-art 
requirements for data centers. In addition, fire suppression systems 
were not designed to cover an entire floor. In short, the current 
facility will not be able to meet the industry standards for data 
centers in the future.
    In 2008, it was determined that a replacement facility was the most 
viable option and began the planning efforts with GSA. SSA cannot lease 
or purchase real estate, so we rely on GSA; and our relationship is one 
of partnership. GSA offers its expertise in real estate and building 
construction, and we offer our expertise in data center design and 
operations. Specifically, we work closely and constructively with GSA 
and its expert contractors throughout every stage of this process. Our 
most seasoned real estate professionals work side by side with their 
GSA counterparts. I assure you that both we and GSA are taking all 
appropriate steps to ensure that this partnership is successful.
    Our GSA/SSA project team includes architects, electrical engineers, 
mechanical engineers, fire protection engineers, project managers, 
occupational safety and industrial hygiene experts, physical security 
experts, and network and IT engineers with knowledge and experience in 
our IT program requirements. We have great confidence in the site 
criteria and Program of Requirements that the team developed. The team 
is adhering to all applicable procurement rules and is following the 
best practices for data center construction.
    We and GSA are closely monitoring the planning and construction of 
the NSC to ensure mitigation of any unexpected challenges, and we are 
holding our executives and staff accountable for achieving the goals of 
this initiative. For example, as the Senior Accountable Official, I 
oversee and monitor overall progress. I also function as a liaison for 
the SSA executives who have lead responsibility for the planning and 
the execution of the project.
    We hold periodic meetings at both the executive and staff levels to 
discuss implementation status and any other issues that may arise. We 
also hold regular meetings internally and with GSA executives to review 
the status of the project. We have established performance measure 
targets that we will monitor in these status meetings.
    The joint project team is thoroughly analyzing our detailed list of 
technical specifications for all aspects of the NSC project to 
efficiently use taxpayers' dollars and minimize cost and schedule 
overruns. We have consulted with industry experts, such as Uptime 
Institute, to ensure we are implementing the most current data center 
standards. We have toured several existing data centers to learn about 
best practices.
    Our requirements for the new facility site are based on our 
business process and technology needs, and the security standards that 
are necessary given the sensitive data we maintain. In August 2009, GSA 
requested expressions of interest using the Federal Business 
Opportunities Web site. The notice contained mandatory requirements, 
such as a minimum of 35 acres suitable for development within 40 miles 
of our headquarters. It also included requirements to avoid increased 
project costs or a delayed schedule that could be caused by landfills, 
hazardous waste, or soil or water contamination on or near the site. 
The site cannot be located within 100 or 500 year flood plain and must 
have reasonable access to utilities, including fiber optic, power and 
water.
    After conducting research and consulting industry experts, we 
determined that the best practice to ensure continuous service to the 
public when we eventually migrate from the NCC to the new center would 
be to bring the systems in the NSC online incrementally. That would 
allow us to test their stability while continuing to operate the 
systems in the NCC in case something did not work properly. For 
example, the computer processes involved in adjudicating a benefit 
application actually ``talk'' to each other to verify and update the 
applicant's personal information on multiple systems. In order to 
properly maintain this interactivity, we need to use software that 
enables the synchronization of data bases with responsive systems 
performance. Available technology limits the separation of the 
transitioning systems to less than 100 kilometers. A site located 
within 40 miles of our headquarters assures us a lower risk transition 
that will not disrupt service to the public.
    The project team is currently evaluating the sites.
    GSA is also leading the development of the detailed Program of 
Requirements for building the NSC. GSA's contractor, Jacobs, is 
developing these requirements through interviews with technical 
experts. While this process is lengthy, a comprehensive and systematic 
approach to long-term planning will provide us with a facility that 
will meet our needs.

Conclusion

    The SSC will allow us to recover all essential functions and 
systems associated with our primary mission while we make steady 
progress toward having our NSC fully operational in 2015. This state-of 
the-art facility will help us maintain the service the American public 
expects.
    None of this progress would have been possible without the support 
of these two subcommittees. We appreciate your advice and input as we 
work together to improve our computer systems and security. Again, we 
thank you for the Recovery Act funding and for your continued support 
for timely, adequate, and sustained funding.
    Chairman TANNER. Thank you very much.
    Mr. Hewell, you are recognized.

 STATEMENT OF ROB HEWELL, REGIONAL COMMISSIONER, MID-ATLANTIC 
      REGION, PUBLIC BUILDINGS SERVICE, GENERAL SERVICES 
           ADMINISTRATION, PHILADELPHIA, PENNSYLVANIA

    Mr. HEWELL. Thank you, Chairman Tanner. Good morning, 
Chairman, Chairwoman Holmes Norton, Ranking Members Johnson and 
Diaz-Balart, and members of the Subcommittees.
    My name is Rob Hewell. I am the Regional Commissioner of 
the General Services Administration's Public Buildings Service 
in the Mid-Atlantic Region.
    I am pleased to have the opportunity today to discuss GSA's 
progress on behalf of the Social Security Administration in the 
delivery of the new Social Security Administration's national 
support center.
    As part of the American Recovery and Reinvestment Act of 
2009, SSA received a $500 million appropriation for a new 
national support center to replace the existing National 
Computer Center in Woodlawn.
    SSA turned to GSA for assistance in locating, designing and 
building this new national support center which will meet the 
Agency's requirement for redundancy and expansion needs for 
long-term needs.
    Based on initial capacity studies, we are planning to 
construct a facility of approximately 300,000 gross square feet 
that will include data, office and warehouse space. We are 
using a multi-phased approach to the construction of the 
facility ensuring that site and design criteria development are 
concurrent and interrelated.
    With respect to site selection, GSA has committed to 
researching, evaluating and selecting a site that can best 
serve the interests of the Federal Government, the end users, 
and the community. There are many factors associated with 
selecting and acquiring a site for Federal construction and a 
data center creates additional challenges.
    In August 2009, GSA requested expressions of interest from 
land owners and authorized agents through a FedBizOpps notice. 
We also contacted local economic development and planning 
groups regarding our search, which produced over 150 potential 
sites.
    These locations were screened against a number of mandatory 
criteria that included land area and geography, proximity to 
SSA headquarters and roadway access, available utility 
infrastructure, cultural and historic resources, proximity to 
security hazards, and proximity to environmental hazards or 
concerns. These sites were then narrowed down based on further 
evaluation of proximity to power and site characteristics.
    Our next steps include a more detailed analysis of 
potential locations to closely examine utility and fiber 
availability, security, environmental impact, development 
costs, and potential schedule impacts. The site selection 
remains on schedule for purchase in March 2010.
    With respect to requirements development, GSA is currently 
working with Jacobs Facilities to conduct a full analysis of 
the SSA data center building and housing plans.
    In July 2009, GSA brought EMC Consultants on board to 
assist in developing a design for the building that is 
versatile and flexible enough to serve SSA information 
technology needs for the long term.
    EMC has developed a growth model for equipment requirements 
through 2033, which takes into account both SSA historical data 
as well as industry trends toward newer equipment technology. 
SSA concurred on this growth model in October 2009. We are now 
working collaboratively with both EMC and Jacobs to develop a 
space power cooling and data center master plan.
    The program of requirements is progressing toward a 50 
percent report at the end of December 2009. Once the location 
is selected, site specific design directives will be 
incorporated into the program of requirements. Program of 
requirements completion is scheduled for August 2010.
    Once we acquire the site, we will begin developing the 
solicitation for a design/build contract based on the finalized 
program of requirements. At the same time, we will continue 
developing the design criteria specific to the selected 
location.
    We will then procure a contractor to both design and build 
the facility. We anticipate contract award for design and 
construction of the new national support center in March 2011. 
Substantial construction completion is scheduled for October 
2013, at which time the building will be turned over to SSA for 
IT migration.
    This is the same schedule we provided to the Committee back 
in April and included in our recovery program plan, and we are 
still confident we can deliver on schedule.
    There are a number of steps we are taking to minimize risks 
throughout this process. We have toured established data 
centers to identify industry best practices.
    In July 2009, the project team participated in a charrette 
facilitated by Lawrence Berkley Laboratories that focused on 
energy optimization techniques in data center design.
    Environmental screening of possible sites is helping us to 
identify potential impacts early in the process.
    Our partnership with Jacobs and EMC are ensuring that we 
will provide a flexible facility design capable of 
accommodating expansion, mission related changes, and 
advancements in technology.
    GSA is moving swiftly to meet SSA's national support center 
requirements on schedule, within budget, and with careful 
consideration given our responsibility and accountability to 
the American taxpayers.
    Along with SSA, we are happy to provide quarterly briefings 
to these Subcommittees as the project proceeds, and we are 
committed to working with you in the successful delivery of the 
national support center as part of the Recovery Act program.
    Chairman Tanner, Chairwoman Holmes Norton, Ranking Members 
Johnson and Diaz-Balart, Members of the Subcommittees, this 
concludes my statement. I will be pleased to answer any 
questions you may have.
    [The prepared statement of Hewell follows:]

    [GRAPHIC] [TIFF OMITTED] T3031.008
    
    [GRAPHIC] [TIFF OMITTED] T3031.009
    
    [GRAPHIC] [TIFF OMITTED] T3031.010
    
    [GRAPHIC] [TIFF OMITTED] T3031.011
    

                                 <F-dash>

    Chairman TANNER. Thank you very much.
    Mr. Inspector General, glad to have you back. You are 
recognized.

  STATEMENT OF PATRICK P. O'CARROLL, JR., INSPECTOR GENERAL, 
                 SOCIAL SECURITY ADMINISTRATION

    Mr. O'CARROLL. Good morning, Mr. Chairman, Madam 
Chairwoman, Mr. Johnson, and members of both Subcommittees.
    Thank you for requesting that I testify today and for your 
interest in this critical issue.
    The National Computer Center houses benefit data for SSA's 
56 million beneficiaries and earnings data on every American. 
The importance of the NCC to SSA's operations and many other 
facets of American life, such as applying for a driver's 
license, cannot be overstated.
    A failure of the NCC would have devastating consequences. 
Unfortunately, the NCC is now 30 years old, and is rapidly 
approaching obsolescence.
    You recognized the need for replacement when you provided 
SSA with $500 million for this purpose in the American Recovery 
and Reinvestment Act.
    The Office of the Inspector General is committed to 
ensuring that SSA uses these funds wisely. Replacement of the 
NCC must be accomplished based on sound decision making and 
without unnecessary delays.
    SSA's experience in constructing the Durham Support Center, 
a co-processing site for the NCC, revealed the challenges that 
can cause delays. It took six years to take possession of the 
DSC, and the facility is still not fully functional.
    Replacing the NCC itself began in earnest in 2007 with a 
Lockheed Martin study completed in 2008. Lockheed Martin 
identified several NCC replacement options, but ultimately 
recommended that SSA construct a new NCC offsite.
    Based on this, it is our understanding that SSA plans to go 
forward with an offsite NCC within 40 miles of the main SSA 
campus, to maximize data transmission speed and limit employee 
commutes.
    SSA next asked GSA for a more detailed cost estimate, then 
engaged Booz Allen Hamilton to conduct an alternative analysis. 
Booz Allen recommended against locating the NCC on the SSA 
campus for reasons ranging from outages during construction to 
higher operational and maintenance costs than any other option.
    Thus, it has been consistently suggested that the off-
campus option is the more efficient approach. Unfortunately, 
the OIG did not initially receive the information and 
documentation it needed to conduct an independent analysis of 
this issue.
    More recently, we obtained additional information from SSA 
and retained a contractor, Strategic e-Business Solutions or 
SeBS, which conducted a review of SSA's site selection process 
on our behalf. They found that SSA, working with GSA, had 
developed ``a highly sophisticated set of selection criteria 
which was used to evaluate general areas of consideration and 
prospective individual properties.''
    However, they also found that questions remained concerning 
the process SSA used in creating a short list of priorities and 
properties.
    They recommended that SSA look more closely at the 
following factors: prospective energy costs, better methodology 
documentation, and early involvement of power providers and 
telcom providers.
    After SeBS completed this report, we asked that they take a 
closer look at the on-campus versus off-campus dichotomy. We 
were informed yesterday that they agree with two of our most 
significant concerns.
    First, there appears to have been confusion starting with 
the Lockheed Martin report as to purported six-year delays for 
land acquisition and zoning issues if an on-campus site was 
selected.
    While there may be some community-based issues if this 
option is chosen, there are no actual zoning issues and delays 
should be short-lived.
    Second, SeBS shares our concern that the comparison of the 
on-campus and off-campus options may not fully take into 
account how different each project is from the other. Comparing 
these two undertakings is much like comparing apples to 
oranges, and we remain unconvinced that many differences have 
been fully taken into account.
    The Office of the Inspector General looks forward to 
continuing to monitor SSA's efforts to use sound planning and 
due care in replacing the NCC. We will keep these Subcommittees 
fully informed of SSA's progress.
    I thank you again for your invitation to be here today, and 
I will be happy to answer any questions.
    Chairman TANNER. Thank you all for again being here and for 
testifying. We do have some questions.
    How did we arrive at this urgency that we are told that 
exists and that I believe exists where the time line is this 
tight? The North Carolina facility, I am told, still cannot 
function as a back-up for any sort of construction.
    We have been given a whole menu of reasons why the on-
campus site is not acceptable, some of which changed.
    I must tell you I am upset about the situation we find 
ourselves in here. I want somebody to explain exactly where we 
are and how we got here and why we are having so much trouble 
when even 48 hours ago we got another reason why we cannot 
build on-campus.
    This thing is very, very loose in my opinion in terms of 
the way it is being handled. Who wants to try to respond? Mr. 
Gallagher?
    Mr. GALLAGHER. Yes, sir. I think you raised a couple of 
different questions. I will try to take them in order.
    We began our deliberations on replacing the National 
Computer Center back in 2007, and that resulted in a report 
that Mr. O'Carroll referenced concluding that the NCC is a 30 
year old building and needed to be replaced.
    We began discussions with GSA at that point and started to 
engage in the normal process for appropriations where we would 
get the prospectus and such working with GSA to replace that 
building, and I believe GSA actually had contracted with a firm 
called EYP to take a look at a possible lease issue, looking at 
various alternatives.
    We did receive, as Mr. O'Carroll said, two Booz Allen 
Hamilton reports. Then the passage of the stimulus bill gave us 
the $500 million, and we started in earnest to assemble the 
team to get things started, and on a rather aggressive 
schedule.
    As somebody mentioned before, we expect that later next 
month we actually will select a site for the National Support 
Center (NSC). In March 2010, we will purchase the site. In 
March of 2011, we will start the design and build construction.
    That alone, the design/build approach will help to 
accelerate the timeliness in the sense that there are pieces of 
it that we can start to build while also doing some of the 
design work. By October 2011, we will start the general 
construction on it. By October of 2013, we will be 
substantially complete on the construction of the facility.
    By November 2013, we will finish up the final commissioning 
and that will be completed in January 2014, and then the 
transfer of data from the current National Computer Center to 
the new facility will be completed in or about July of 2015.
    I believe we are on a rapid schedule to get that done.
    Chairman TANNER. I am told that the existing NCC is 
supposed to reach its electrical capacity in 2013, and you say 
2015 is when we will be functional. What about that 24 month 
gap?
    Mr. GALLAGHER. Sir, let me address that. Actually as early 
as the Lockheed Martin report, we looked at the fact that we 
were at the greatest risk starting about 2012 and going 
forward. We saw actually a couple of different contemporaneous 
items to mitigate that risk while we are building the new 
National Support Center.
    One of our biggest issues that we identified was our 
uninterrupted power system. That is we need to be able to take 
the wholesale power we get from the electric company and clean 
it up so we can go ahead through generators and switching gears 
and to make it into useable electricity.
    In addition, we recognize that the current NCC contains old 
pieces of equipment and that we were running out of spare 
parts, and our maintenance contract was going to end at the end 
of 2012.
    One of the things we did is we bought all the spare parts 
we could to have them on hand. We were able to extend the 
maintenance contract through 2015 so we could keep that going. 
We actually did replace a number of feeder cables and some of 
the panels that actually handle the transfer of cables up to 
the data center area so we would have that in place.
    We did some other things as far as updating and 
retrofitting some of the other electrical cables so we could 
mitigate the risk we would have, so we would have confidence 
that we would be able to get to that 2015 date.
    I would say that the North Carolina facility also plays a 
part in that mitigation in the sense that it will be up and 
running in phases to take on additional workloads, to take that 
off the campus location, so we could reduce the ever increasing 
demand for power, we could actually lessen that, and that was 
part of risk mitigation as well.
    That combination of North Carolina being up and taking on 
some of those workloads plus some of the continual maintenance 
that we were doing to get things updated would help us mitigate 
that risk.
    Chairman TANNER. I want to give the other members of the 
panel time. Tell me again how you went about determining that 
an on-campus site was not feasible. We have been told various 
things for over a year now it seems. In fact, we were told that 
at one time there was a zoning problem out there, which is 
almost ludicrous.
    Where are we on that? Why?
    Mr. GALLAGHER. With respect to the campus, we looked at the 
campus and actually made a presentation to the Commissioner 
back on or about the first of August 2008 on various possible 
sites. He actually pushed back on us about not putting it on-
campus. We talked about the areas that we were looking at for 
the campus.
    Our view was that the topography and the actual envelope 
did not present itself as a good site for it. There were two 
pieces that really led to that.
    One, sir, we made an error on the zoning issue. We had 
deliberated that it could take up to 72 months for zoning. That 
was set forth in the contract reports. That was an error. We 
should not have relied upon a 72 month period for zoning.
    Zoning and land use actually is part of the study that will 
go on as far as an assessment on it, but we did make a mistake 
there.
    The other issue we had is that we looked at the building 
envelope. Our thought that the best place based upon the 
topography was a place on the large parking lot that houses 
thousands of spaces for our employees. In order to do that, we 
thought we would have to build a parking garage before we would 
be able to begin digging for the computer center. That could 
take 18 to 24 months.
    It was our view that this was a project that needed to be 
shovel ready, that we needed to act with all the speed we 
could. We wanted to eliminate risk to any delay in getting that 
built, so we made the recommendation to the Commissioner and he 
did push back on us, so our initial thought back in 2008 was 
the campus was not the right place for it.
    Last month, as a result of some questions from the 
Committee, GSA and SSA revisited that issue, and GSA took a 
thorough look, re-look, at the viability of the campus for that 
location. I heard as well as I think some of your Committee 
staffers heard this past Friday about their review of the 
usefulness of the campus location.
    With your permission, perhaps Mr. Hewell could address the 
assessment of that.
    Chairman TANNER. I am a business guy. If I was in business 
and I had a campus like this, I think I could figure out how to 
utilize it. Mr. Hewell?
    Mr. HEWELL. It is difficult to figure out where to start. 
There have been a number of studies done on this campus and on 
this project. They have been used in different ways. Some of 
the early ones were intended for a lease solution which 
produces different issues than a federally owned solution.
    Relying on contractors sometimes produces impressions that 
are wrong such as the zoning one. There is clearly not a zoning 
issue on federally owned land.
    Chairman TANNER. Who was the contractor? This is almost 
ludicrous as a reason for not proceeding because of a zoning 
problem.
    Mr. HEWELL. I bring it up just to say that it is clear 
mistakes have been made. We went back after our last meeting 
with the Committee and we were asked how the existing site 
compares to the site criteria that we were using for the site 
selection.
    We went back and took the campus and ran it through the 
same process that we have used to evaluate over 150 sites. We 
briefed Committee staff last week on this for four or five 
hours, and I do not propose to take that much time today. I 
would just like to offer you sort of a summary of it.
    Our conclusions--we did a number of things. We looked at 
the topography of the site, the land use around the site, the 
incoming electrical service, the needs for other things, the 
associated spaces including parking associated with the data 
center.
    We did several test fits in different places on the site to 
see how well the data center would fit there. It is incorrect 
to say that the data center cannot be built on the existing 
campus. It clearly can be. In our opinion, it is not the best 
solution.
    I think there is a presumption that using the existing 
campus would save so much money in land costs that we should do 
it for cost reasons. There is no identifiable cost advantage to 
being on the campus. It will probably cost more because of the 
need to create parking garages or structured parking of another 
kind, which will actually cost more than the cost of acquiring 
a site.
    There is clearly an increased complexity both in design and 
in construction that will add to the schedule. It is much 
easier to design and build a project on a green field site that 
is leveled, that does not have the surrounding complications of 
the campus.
    There are topography issues on the site that will clearly 
limit what we can do. It is not impossible to build it there. 
It will be quicker and cheaper to build it somewhere else.
    Chairman TANNER. How many cars are you talking about in 
this parking garage?
    Mr. HEWELL. Offhand, I do not know, if you will give me 
just a second, I can get you an answer.
    Chairman TANNER. You are telling me a parking garage is the 
problem? They built parking garages for every football and 
baseball stadium in this country. They built a big stadium 
right beside the old one in Atlanta. You are telling me you 
cannot build because it is so expensive to build a parking 
garage out there that you have to move?
    Mr. HEWELL. No. It is not impossible to build. It will be 
more expensive to build those garages than it will be to----
    Chairman TANNER. How many cars are you talking about?
    Mr. HEWELL. To do surface parking on a flat site.
    Chairman TANNER. How many cars are you talking about?
    Mr. HEWELL. Just one second. The existing NCC has 760 
parking spaces. The NSC will require an additional 300. That is 
over 1,000 parking spaces. The construction cost for that is 
roughly $20,000 per square foot--per space.
    Chairman TANNER. Thank you. Mr. O'Carroll, would you 
comment, please?
    Mr. O'CARROLL. Yes, Mr. Chairman. Our biggest concern has 
been the documentation. Part of the job of an Inspector General 
is to be able to examine documents and then provide feedback.
    This has been a fairly confusing issue over the last few 
months because we have gotten information from four different 
contractors with costs ranging anywhere from about $200 million 
to $800 million. We are talking buildings without computers, 
buildings with computers, et cetera.
    It has been very confusing for us to sort through these 
apples and oranges estimates.
    What we are looking at is the decision process that was 
made first on not considering the current NCC property and 
instead looking at other properties. We have been trying to 
compile that information.
    We have hired a contractor, SeBS, who has been requesting 
these documents. It has been enlightening, as they are asking 
for these different documents, and we are getting some 
documents months after decisions are made. We are sorting 
through them all right now.
    We are really just waiting to get our report back from the 
contractor. We got an initial report back yesterday with some 
preliminary information. I have to say our contractor at this 
point has found the offsite solution could be viable.
    We are looking very closely at that. We are still skeptical 
and we are still waiting for all the documents.
    Chairman TANNER. One final thing. Mr. Hewell, could you 
give us the analysis for the record that you have gone through 
of this parking garage and the on and off-campus proposals? Do 
you have one? I assume you have some sort of analysis about why 
one is better than another. Can you submit that for the record?
    Mr. HEWELL. The cost analysis is fairly straightforward. 
The cost of acquiring land, our current estimate for that is 
about $12 million. The cost of structured parking for the 
number of spaces that we need to deal with would be a little 
bit more than twice that.
    Chairman TANNER. Do you have an analysis of that we could 
see, or are you just telling me?
    Mr. HEWELL. We will prepare it for you, sir.
    Chairman TANNER. All right. Thank you. Ms. Holmes Norton, 
you are recognized.
    Ms. NORTON. Mr. Chairman, first I want to say I thank you 
for your line of questions because I am perplexed, and Mr. 
Hewell, you know there is a strong presumption of building on 
Government owned land, a commonsense presumption, it is a 
presumption that can be overcome but not very easily.
    Your Agency is about to build on the old St. Elizabeth 
campus. It is not an optimum site. It is not in the middle of 
Washington. It is not close to the Capitol. Guess what? The 
Government of the United States owns that land. Uncle Sam owns 
this land. We are going to build on land we own.
    I listened carefully to Chairman Tanner's questions for how 
you overcame the presumption, a very strong presumption, in 
favor of building on your own land with by the way considerable 
land, I understand, at the site, rather than as you seem to 
believe should happen, going and buying land to build near the 
site.
    I think you have to explain to us and to the Ways and Means 
Committee why this is a rare instance where given existing 
land, where there is room to build, you are asking the 
taxpayers to buy you some more land and then build a new 
facility.
    Mr. HEWELL. Thank you for the question. There were several 
reasons why we came to the conclusion that a new site would be 
preferable to building on the existing campus site.
    Ms. NORTON. Excuse me, I have to stop you there. It is 
preferable for me to build a house on land I do not own because 
I like that land, because I could do it more easily.
    I want to know given all of the considerations, 
particularly the strong consideration of existing federally 
owned land, how you overcame that. Not what is preferable. It 
might be preferable to build it anywhere, but comparing 
building on-site, on land you owned, how did you overcome the 
presumption that you were well aware of, Mr. Hewell, from your 
GSA experience, how did you overcome that presumption?
    We spend our lives preferring one thing over another, but 
that it was essential to build off site and to acquire land in 
order to do so.
    Mr. HEWELL. The conclusions that we came to, let me just 
run down those really quickly. Any savings in land cost is 
overcome by additional project costs created by building on the 
site.
    Ms. NORTON. Mr. Chairman, I am going to ask that a detailed 
analysis based upon those conclusions be given to this 
Committee and to our Subcommittee. I have seen no analysis, Mr. 
Chairman, to indicate that it flies in the face of the usual 
situation where the opposite is the case.
    I am aware of the topography there. I am also aware that 
GSA knows how to build on all kinds of topography. Look at what 
you are going to be doing at the old St. Elizabeth's site where 
the topography is anything but made to be built upon.
    Mr. HEWELL. We are not contending that it is impossible to 
do it. We are contending that it will cost more and take 
longer.
    Ms. NORTON. I will end this line of questioning by saying 
if a detailed analysis----
    Mr. HEWELL. We will be happy to provide that analysis.
    Ms. NORTON. Some of the issues that arise in building would 
certainly not arise if you built on the site. Public 
transportation. I take it public transportation is near a site 
you are considering?
    Mr. HEWELL. There is limited public transportation at the 
majority of sites that were offered to us.
    Ms. NORTON. I have a GSA estimate here of $396 million. Why 
is that so much higher than the Lockheed Martin estimate of 
$172 million?
    Mr. HEWELL. I am sorry, Madam Chairman. I do not 
understand.
    Ms. NORTON. We understand that GSA estimated a cost of $396 
million and Lockheed Martin's study was very much lower.
    Mr. HEWELL. The Lockheed Martin study was preliminary. Ours 
is much later and much more comprehensive.
    Ms. NORTON. What LEED rating will this building have?
    Mr. HEWELL. We are seeking a minimum of a silver rating.
    Ms. NORTON. That is good. What about the old discussion, if 
you really want to get into controversy when you are building, 
you mess with the delineated area. Is that straightened out, so 
that we are not carving out part of what would be a natural 
area and saying wherever we build, that area cannot be 
considered the old redlining technique that the GSA is famous 
for?
    Mr. HEWELL. As far as we know, the delineated area is a 40-
mile radius of the campus.
    Ms. NORTON. On our own Subcommittee, we have been doing 
hearings in order to see whether or not one of the major points 
of the money you have received--you probably would not have 
gotten this money except for the collapse of the economy and 
the need to stimulate jobs.
    When are we going to get to the point where you can report 
to those committees that jobs are in fact being created, are 
they being created? You say you are on time and on budget. How 
much money has been spent and obligated?
    Mr. HEWELL. I would have to get back on you on to how much 
money has been spent to date. It has been mostly on the cost of 
doing studies and doing planning.
    Ms. NORTON. You see the problem, the administration and 
this Committee is going to be held accountable for whether or 
not there will be jobs produced.
    What does ``on time, on budget'' mean? When are you going 
to be making jobs?
    Mr. HEWELL. The substantial portion of the jobs that are 
created by this project will begin on or around October 2011 
with the start of general construction. There will be obviously 
other people employed before that in the design process, but 
the numbers will be much smaller than the construction.
    Ms. NORTON. When will the building be completed?
    Mr. HEWELL. From our perspective, before IT migration, it 
will be completed by October 2013.
    Ms. NORTON. Finally, the design/build option, you need to 
explain why GSA has chosen the design/build option as opposed 
to the advantages and disadvantages as opposed to other ways 
that GSA builds, because GSA does not usually build/design 
build.
    Mr. HEWELL. The primary reason for using design/build in 
this case is that----
    Ms. NORTON. Explain what ``design/build'' is.
    Mr. HEWELL. I am sorry. In the traditional construction 
project, we contract for design separately. We get a complete 
design and then we compete that design for construction.
    In a design/build project, we hire one contractor to do 
both the design and the construction. It saves us time in 
procurement because we do one procurement instead of two, and 
in general, because the contractor can start construction 
before design is complete, we often find the design/build 
produces a shorter schedule. That was the primary reason for 
using it in this case.
    Ms. NORTON. That is certainly understandable.
    Finally, the GSA isn't very good in my experience in 
keeping public controversy from developing around projects. 
Have you a program of public outreach so as to avoid public 
controversy?
    Mr. HEWELL. Absolutely. One of the criteria that we are 
using in the site selection is to try and find a site that we 
believe would not cause much public disruption in order to make 
the environmental process easier and quicker.
    Ms. NORTON. We certainly know on-campus would not cause 
much public disruption or much public controversy, since you 
would be building on your own land, sir.
    Mr. HEWELL. In order to build on our land, there are some 
private properties that are sprinkled around the campus that 
would probably have to be acquired.
    Ms. NORTON. What does that mean? You are talking about you 
would have to build on land you do not own as well?
    Mr. HEWELL. Most of the potential test fits of the facility 
would require the acquisition of individual homesteads that are 
sprinkled throughout the eastern side of the campus. There 
would be some issues with respect to acquisition.
    Ms. NORTON. Again, as part of your analysis, I think you 
need to submit that analysis to the Chairman and to our 
Subcommittee.
    Mr. HEWELL. We will be happy to do that.
    Ms. NORTON. Thank you very much, Mr. Chairman.
    Chairman TANNER. Thank you. Mr. Johnson. Mr. Diaz-Balart, 
welcome. We have asked unanimous consent that any opening 
statements be submitted to the record in their entirety.
    Mr. Johnson.
    Mr. JOHNSON of Texas. Thank you, Mr. Chairman.
    You know, following that line of questions, what would be 
the cost of condemning or buying those houses that are private 
on that property as compared to what you are doing now or 
thinking about doing?
    Mr. HEWELL. I do not know what the cost of acquiring 
those----
    Mr. JOHNSON of Texas. You have not looked at it yet; is 
that correct?
    Mr. HEWELL. Yes, we would need to do appraisals and that 
kind of thing.
    Mr. JOHNSON of Texas. Tell me who makes the final decision 
regarding the location. Is it GSA, SSA, OMB or all three?
    Mr. HEWELL. The correct answer is probably all three. The 
project team, which is primarily both SSA and GSA, will come to 
a conclusion and make a recommendation to the Commissioner of 
SSA who will, I guess, do thumb's up or thumb's down, and if it 
is thumb's up, he would report that decision to OMB and 
ultimately to Congress.
    I have been asked that question before and I do not 
actually know the answer.
    Mr. JOHNSON of Texas. If you have been asked the question 
before, you ought to go find out the answer.
    Mr. HEWELL. The authorities seem to be multiple.
    Mr. JOHNSON of Texas. Then you need to deal with all those 
agencies; is that true?
    Mr. HEWELL. Yes, that is true.
    Mr. JOHNSON of Texas. Would it cost less to buy up those 
houses and put the building on that property than what you are 
talking about?
    Mr. HEWELL. The site acquisition costs for those properties 
at the existing campus would I am sure be less than the cost of 
acquiring a new site.
    Mr. JOHNSON of Texas. That is interesting.
    Mr. HEWELL. The cost of developing the existing campus for 
this project would exceed the cost of developing that in an 
open green field site with flat topography.
    Mr. JOHNSON of Texas. I am not sure that we can guarantee 
that thing will be built on time and on budget. Can you 
guarantee that?
    Mr. HEWELL. We are very confident about that, sir.
    Mr. JOHNSON of Texas. Are you?
    Mr. HEWELL. Yes.
    Mr. JOHNSON of Texas. We have not been able to do that in 
the past.
    Mr. HEWELL. If I may speak for my regional office, sir, we 
have a long history of being on time and on budget. We are very 
proud of it.
    Mr. JOHNSON of Texas. That is why you stick it way out 
there to 2015, you can make that.
    Mr. Gallagher, you say next October you will have the 
infrastructure in Durham to recover and run the entire 
operations through the computer center. Why did you decide to 
build a new computer center instead of using Durham as a 
primary site?
    Mr. GRAY. Mr. Johnson, maybe I can answer that for you. The 
reason that we cannot just move our workloads to Durham while 
we are building a new data center to replace our current one is 
that if we did that, we would be in exactly the same situation 
that we are in today where, if we had a disaster, we would have 
to back-up at our commercial hot site, which is inadequate for 
a disaster.
    If we can maintain two data centers throughout this entire 
effort, we can make sure that if we have a disaster, we can 
recover all of our workloads at either one.
    Mr. JOHNSON of Texas. I understand that idea. Why can you 
not make Durham the primary center and the one up here a back-
up?
    Mr. GRAY. Because neither one is a primary and a back-up. 
Both of them are co-processing centers today. Half of our 
workloads run at Durham. Half of our workloads run in the 
National Computer Center. In the event of a disaster, either 
one would take over for the other.
    Mr. JOHNSON of Texas. Is the Durham center modernized? It 
doesn't use COBOL; is that true?
    Mr. GRAY. Yes, sir. It is modernized. The workload that is 
there is on modern computers. There is some code that we run 
that is COBOL code that runs both in the National Computer 
Center and in North Carolina.
    Mr. JOHNSON of Texas. Why has it taken us 13 years or more 
to get off that COBOL system?
    Mr. GRAY. Well, first of all, the issue here is that you 
could just hire someone to convert that COBOL code----
    Mr. JOHNSON of Texas. I think Microsoft could do it 
overnight.
    Mr. GRAY. I do not know if they could do it overnight but 
certainly they could do it much faster. The issue here is that 
if we did that, if we just converted the code to another, we 
would maintain the same problems in our systems that we have 
today.
    Let me give you an example. You are very familiar with the 
fact that today, we are replacing 54 COBOL systems that run in 
our DDS', independent systems. If we were to just convert that 
code, we would end up with 54 web based systems all 
independent, all hard to change, all the problems that we have 
today.
    Instead, as we are going forward and replacing the COBOL 
code, we are modernizing our systems, we are redesigning them 
so that we really have more flexibility, for example, in the 
DDS systems, not only will there be one single web based system 
that can be changed overnight, but in addition to that, we will 
be able to integrate health information technology. It will be 
able to integrate case analysis tools.
    We will really have a more robust system serving us for the 
21st Century than if we were just to convert that code from one 
language to another.
    Mr. JOHNSON of Texas. Do you agree with that, Mr. 
O'Carroll?
    Mr. O'CARROLL. Mr. Johnson, our concerns are with the speed 
with which the Agency is moving forward with conversion of the 
COBOL. As it stands now, it is in the plans, and as Bill just 
mentioned with the DDSs, but when you are looking at the major 
systems of SSA, we are seeing no major progress in converting 
that COBOL language.
    Our concern, and what I think should be the concern of 
everyone, is as we are building this new computer center, 
wherever it is built, that we look into the future and do some 
long range planning, and look out 20 years and see what type of 
technology is going to be needed, and take that into 
consideration.
    I use the example of buying a brand new limousine and 
putting a golf cart engine in it. We should be making sure that 
the best of technology is being used in the location as well as 
in the data systems.
    Mr. GRAY. Mr. Johnson, I agree that we ought to be looking 
ahead to the best technologies that are available. I would just 
say to you that over the last several years, we have made a lot 
of progress in moving into modernized systems. Our databases 
that house information, benefit data, two-thirds of that data 
has now been moved into a modern industry standard database. 
Forty percent of the COBOL code we had is now running in modern 
languages.
    I think we are making progress as we move along. I just 
think it is more difficult in some cases as we redesign our 
systems.
    Mr. JOHNSON of Texas. It is awfully slow. I think today's 
computers all over the world share information with each other 
and yours do not seem to want to.
    Let me ask Mr. Hewell, did you analyze and concur with 
Social Security's rationale for a 40 mile radius or did you 
just accept it?
    Mr. HEWELL. I guess the quickest answer to your question is 
that we accepted it. We looked at their rationale for it. It 
seemed to make sense. The rationale was a technical one.
    Mr. JOHNSON of Texas. Yes, but it would not be a problem if 
we put it on the current site, would it?
    Mr. HEWELL. That would not be a problem.
    Mr. JOHNSON of Texas. I think that is another reason for 
doing that. Are you saying, Mr. Gallagher, let me ask you, that 
by October, Durham is going to be able to recover all the 
systems?
    Mr. GALLAGHER. Yes, sir.
    Mr. JOHNSON of Texas. October of this year? Are you telling 
me it is going to be until October next year before we can 
recover all the systems?
    Mr. GRAY. Sir, maybe I can help you. In January, in a 
couple of weeks, the North Carolina site will be able to 
recover all of our critical production systems, which are the 
payment systems.
    In October, we will also be able to recover the non-
critical systems, which are some of the regional workloads, 
some of the management information, some of the forecasting 
workloads that are not as time sensitive to bring up.
    In reality, the systems that this country relies on to be 
available will be able to be recovered in North Carolina 
starting in just a couple of weeks.
    Mr. JOHNSON of Texas. In October of next year?
    Mr. GRAY. In January.
    Mr. JOHNSON of Texas. That is only a couple of weeks away, 
you know.
    Mr. GRAY. Yes, that is what I am saying.
    Mr. JOHNSON of Texas. By January, we have full capability 
on our Social Security system and we will not lose anything 
except what you just talked about?
    Mr. GRAY. Yes, sir. All critical production systems we 
would be able to recover in North Carolina.
    Mr. JOHNSON of Texas. We would not have to stop Social 
Security checks or disability checks; is that true?
    Mr. GRAY. That is true, sir.
    Mr. JOHNSON of Texas. I am glad to know that.
    Mr. Gallagher, you also talk about the strengthened role of 
your Chief Information Officer is to ensure that you have a 
long term vision and a process in place to make use of leading 
edge technologies. Is this position that you are talking about 
a political appointee, and if that is such an important thing, 
why is he not testifying here today?
    Mr. GALLAGHER. The new Chief Information Officer is a 
political appointee, but is not in a position that requires 
confirmation by the Senate. We have only three Senate-confirmed 
positions which are the Commissioner, the Deputy Commissioner 
and then we have the Inspector General as well.
    Mr. Baitman joined us earlier this year. He is actually 
seated behind me.
    Mr. JOHNSON of Texas. Has he signed off on your decisions 
concerning the national support center, the new location?
    Mr. GALLAGHER. He has been involved in meetings. I believe 
he attended the meeting on Friday. He has raised some questions 
which is rightly so, because we look for him to be a critical 
thinker.
    I met with the Commissioner last night where we expressed 
to him or I expressed to him along with the chief of staff the 
results of Mr. Hewell's study, and the Commissioner has decided 
that we need to have this shovel ready. He wanted to proceed as 
we initially had outlined about moving forward.
    Mr. JOHNSON of Texas. How many GSA staff are assigned to 
you for help in this deal?
    Mr. GALLAGHER. Sir, I actually do not have that number. In 
a project that is a joint project, I guess I am hesitant to use 
the word ``assigned.'' I would defer to Mr. Hewell about how 
many folks are actually from his shop that are working on the 
project, if that would answer your question.
    Mr. HEWELL. In one capacity or another, we have about a 
dozen people from GSA assigned to the project, and then of 
course, there are additional contractors assigned.
    Mr. JOHNSON of Texas. How many consultants and contractors 
have been involved in the process so far and did you hire them 
or did somebody else hire them?
    Mr. HEWELL. The consultants we are using we hired. Let me 
just get a number for you. We have two consulting firms working 
for us.
    Mr. JOHNSON of Texas. You coordinate with them every day?
    Mr. HEWELL. Several times; yes.
    Mr. JOHNSON of Texas. Okay. What do they think about the 
location?
    Mr. HEWELL. They were part of the study. They are in full 
agreement that it should be off site.
    Mr. JOHNSON of Texas. Can you give us about ten reasons why 
you cannot use the existing site?
    Mr. HEWELL. As I said earlier, sir, I would not tell you 
that you cannot use it. I would tell you there are reasons why 
it makes more sense to use a different one. Those reasons are--
--
    Mr. JOHNSON of Texas. I think Ms. Holmes Norton was right 
on when she asked, ``What are we doing buying more property for 
the Federal Government when we have a site that large?''
    Mr. HEWELL. If I may, sir, the actual developable area of 
the site is smaller than it looks. What is developable is 
fairly critically sloped which makes development on the site 
more expensive and more complicated.
    Most of the flat area on the existing campus is currently 
developed. As we expand construction on the campus, we would be 
building on existing parking lots and creating structured 
parking in other places at the expense of that. It also 
requires that we phase construction which affects schedule on 
the site of anything that we do.
    If we do something for the computer center on the existing 
site, we would be taking away some of the possibility of 
further developing the site in the future for additional office 
related space, like what is on the campus now.
    That actually in our opinion would be a mistake because we 
already have a lot of leased square footage in buildings that 
kind of ring the campus, and for long term, we would like to 
see that become Government owned because this is clearly a 
facility that will be around.
    Mr. JOHNSON of Texas. One of the questions that has not 
been asked is what do you intend to do with the existing 
building? Are you going to demolish it?
    Mr. HEWELL. The existing building would probably be 
ultimately converted to office space. We need to do further 
study on it. There is a chance it would be torn down. The 
likelihood is that it would end up being converted.
    Mr. JOHNSON of Texas. Are you going to get rid of all that 
wiring that is in there right now?
    Mr. HEWELL. We would certainly have to get rid of some of 
it; yes.
    Mr. JOHNSON of Texas. Thank you, Mr. Chairman. Thank you, 
Ms. Holmes Norton.
    Ms. NORTON. I just wanted to say in light of both Mr. 
Johnson's questions and your questions, for the record, on the 
St. Elizabeth's site, we do have something to compare with 
here, that is the biggest construction going on in the United 
States today. We own the land.
    The Chairman was concerned about the parking lot, about 
parking, and whether or not you needed to have a flat surface. 
I just want to say that at the old St. Elizabeth's site, they 
simply dug into a hill and they are putting parking right on 
that site. Again, in keeping with the presumption in favor of 
building on land you own.
    Your notion that you have to have a flat site in order to 
park----
    Mr. HEWELL. Most of the construction that is going on at 
St. Elizabeth's is office space, which can be----
    Ms. NORTON. I am talking about the parking lot. I am 
talking about the parking. There is parking. This is a sloped 
area.
    This is an area full of historic buildings and still the 
Government is so concerned that we build on existing land that 
we are re-using the historic buildings rather than taking the 
whole facility off site.
    That is how strong there is a presumption of building on 
your own land, even using--these are old, old buildings, not 
only old buildings, buildings that we used for everything from 
clinics to dormitories. Because they are historic, the 
Government is willing to spend some money to in fact re-use 
them because they are on land we own.
    Again, Mr. Chairman, I have not heard in your call for 
specific analyses, particularly given the fact that we have 
some time, it is very important before we do what frankly
        -- I will ask you, Mr. Hewell, do you know of any other 
        instance where the Government has owned land but has 
        decided to buy land instead of using land it owned?

    Mr. HEWELL. The answer to that is surely yes, but I can't 
give you----
    Ms. NORTON. You are going to have to--I do respect 
precedent. If you give me examples given GSA's long history of 
building, I think it would be----
    Mr. HEWELL. We will look for some precedence. Madam 
Chairman, I ask you to realize also that we are talking about a 
computer center and not office space here. The construction 
needs of a computer center are different. This is a big flat 
building.
    We are also talking about a need for speed. I have heard 
that from all of you today. Building on the campus will present 
difficulties that we will not experience elsewhere that will 
affect the schedule.
    Chairman TANNER. How many acres are out there on the 
campus?
    Mr. HEWELL. 270.
    Chairman TANNER. You said earlier that it was not cost 
effective to build there because you had to build a parking 
garage. You have surface parking now, and you cannot find in 
270 acres other surface parking if you use the campus?
    Mr. HEWELL. The large majority of the space in that 270 
acres that is flat, the easiest to build on, is either covered 
currently with buildings or parking lots.
    Chairman TANNER. You are saying you cannot build a surface 
parking lot on a hill?
    Mr. HEWELL. You can certainly build parking on a hill. It 
requires excavation and foundation work.
    Chairman TANNER. Would that be cheaper than a parking 
garage?
    Mr. HEWELL. Structuring parking whether it is a garage or 
not is comparably priced. The area to the north of the existing 
data center, as an example, has something like a 60 foot 
elevation on it, between where the current data center and the 
property line is, which is roughly six stories.
    We are dealing with some significant topography.
    Chairman TANNER. Mr. Diaz-Balart?
    Mr. DIAZ-BALART. Thank you very much, Mr. Chairman.
    I am from Florida. I do not have a dog in this fight as far 
as one place or another. I am concerned obviously about making 
sure that the safety issue has to be paramount.
    Also, regardless of what has happened in the past or what 
will happen, safety is paramount. I think you all will agree 
with that.
    You mentioned speed. Speed is important because of costs. I 
know it is also part of job creation which is supposed to be a 
stimulus. Also, cost is paramount in my opinion.
    Let me ask you the following, which is less expensive, to 
keep it on-site or to move it to a new location? Number two is 
which is safer for everything that it entails to keep it on-
site or to move it to a new location, and third, which is 
related to the expense, which is faster, to keep it in this 
location or to move it to a new location?
    Mr. HEWELL. My answer to those three questions would be the 
outside solution in all three cases.
    Mr. DIAZ-BALART. The off site solution is less expensive?
    Mr. HEWELL. We believe it would be less expensive.
    Mr. DIAZ-BALART. Any idea how much less expensive?
    Mr. HEWELL. I do not believe our studies are developed 
enough to give you that answer specifically. We know the cost 
we would incur to go off site as opposed to stay on-site would 
be the cost of acquiring land. That cost is roughly $12 
million.
    The additional cost we will incur on the existing campus to 
deal with the things that we have been talking about will in 
our opinion exceed that. I am a little afraid to throw out any 
numbers because I do not know that we have developed them that 
much.
    The cost of dealing with the topography to build either a 
building or parking will exceed that $12 million cost.
    Mr. DIAZ-BALART. In your opinion, it would be less 
expensive to build elsewhere than on the current site?
    Mr. HEWELL. We believe so.
    Mr. DIAZ-BALART. It would be great if you could give us 
something regarding that.
    Mr. HEWELL. We will develop that analysis.
    Mr. DIAZ-BALART. That is crucial. Again, we should not be 
talking about theories here. We should know. Again, we would 
like to see and I think the Committee would like to see that, 
as the Chairman has just said off microphone, an analysis of 
price differences between off-campus and on the current 
location.
    Number two is speed. I would also like to see, Mr. 
Chairman, if possible, an analysis of which one would happen 
quicker, if that is at all possible.
    Mr. HEWELL. It is possible and we will produce that.
    Mr. DIAZ-BALART. The third one which is paramount, 
obviously--I said I do not have a dog in this fight except for 
the fact that we all need to make sure that safety is 
paramount. We need to make sure people continue to get their 
checks and that information is not lost or whatever.
    Do you have an analysis on what the impact on safety of the 
information would be, the potential risk of putting it on-
campus versus off?
    Mr. HEWELL. The analysis would go something like this. If 
we build a facility off site, we will not run any risk of a 
backhoe running into existing wiring or something like that 
which we may or may not know about.
    If we build on-site, we will certainly do everything we can 
with respect to the plans that we have for what is underground 
and that sort of thing already, but the risk exists for 
something to happen. It happens on construction jobs all the 
time.
    Mr. DIAZ-BALART. Particularly with an old facility where--
--
    Mr. HEWELL. Where the plans from 30 years ago are not 
necessarily up to date or findable.
    Mr. DIAZ-BALART. Mr. Chairman, what I would like is as much 
as possible if you could get us answers to those three 
questions as specific as possible, as accurate as possible.
    Mr. HEWELL. We will take a shot at it.
    Mr. DIAZ-BALART. Great. Thank you. Thank you, Mr. Chairman.
    Ms. NORTON. Mr. Diaz-Balart, you asked a question that was 
very important here about safety. In the analysis they are 
getting to the Committee on safety, an analysis of the kinds of 
offsets that would be required.
    Once you acquire new land, which is not already protected 
as this land is, you then will have to erect a whole new set of 
security procedures which have to be figured into the cost. It 
raises costs and certainly for the Social Security system 
raises real safety issues in security terms.
    Mr. HEWELL. The offset for the perimeter security will 
actually not be a great deal less because that same security 
would need to be done on the campus. The campus itself is not 
secured to the level that the data center area needs to be. 
There are setbacks and things that are associated just with 
that facility.
    Mr. DIAZ-BALART. If I may, Mr. Chairman.
    Chairman TANNER. Yes.
    Mr. DIAZ-BALART. I think my Chairwoman had a very important 
point. I think we need to have some answers and we need to have 
those as specific as possible and as timely as possible. I 
appreciate if you could do that.
    Thank you, Mr. Chairman.
    Chairman TANNER. Thank you. Ms. Brown-Waite?
    Ms. BROWN-WAITE. Thank you very much, Mr. Chairman.
    Mr. Hewell, I travel back and forth in my District every 
week, and sometimes at the airport, I meet some of the most 
interesting people.
    Are you aware that GSA actually has contracted with an 
organization that has expertise in putting up commercial 
buildings and has sought their advice? Are you aware of such a 
contract? This is a consulting contract on how GSA can build 
better, faster and cheaper. Are you aware of such a contractor?
    Mr. HEWELL. I have to say no, I am not. My purview is the 
regional office. What you are describing sounds to me like a 
national office contract.
    Ms. BROWN-WAITE. If I could make a suggestion. I have seen 
this person several times at the airport, and I am naturally 
interested in saving taxpayer dollars. This consultant has come 
up with a plan. They believe that various buildings could be 
constructed in half the time at half to two-thirds of the 
current cost.
    Obviously, GSA was amazed at this. It seems to me as if in 
private industry, there is a deadline, and cost overruns are 
very seldom allowed because they hold the feet of the 
contractors to the fire and get the construction done very 
quickly.
    I strongly advise you to follow up and get the information 
that has been supplied to GSA. Government workers, we are 
shocked, tried to shoot holes in the proposal, but were really 
unsuccessful because it works.
    I would really strongly suggest that you follow up on this 
with the main office.
    The other question that I have is how do you think other 
than this private contractor that Congress could help you speed 
up this process? The whole building process.
    Mr. HEWELL. For all of the 35 years or so that I have 
worked for GSA, we have continuously looked for ways to do 
that, and we have actually made significant improvement.
    We do over 95 percent of our business in terms of dollars 
spent through contractors. We talk to them all the time about 
many things.
    I would like to take this opportunity to say that in terms 
of dealing with the SSA issue at hand, Congress has certainly 
helped us a lot already by appropriating the funds for this 
project as quickly as they did.
    If I might get the name of this contractor that you were 
talking about after the hearing, I would like to do that.
    Ms. BROWN-WAITE. I have a briefing I have to go to but I 
will make sure my staff gets it to you.
    Mr. HEWELL. Thank you very much.
    Ms. BROWN-WAITE. I have a question for Mr. O'Carroll. Mr. 
O'Carroll, what do you think is the most important lesson that 
can be learned from the building of the secondary data center 
in Durham, and how can we apply this lesson to the new 
construction of the National Computer Center?
    We were originally told that the building would take six 
years. It took eight years. Should we really believe that the 
building that we are discussing today will be constructed on 
time?
    Mr. O'CARROLL. Congresswoman, that is a very good question. 
All of these questions are interesting. One of the 
responsibilities of being the Inspector General is remaining 
independent. With all the discussions of the tour on Friday, we 
are usually not invited to those events. We do not go along, 
but we review the documentation afterwards.
    It is sort of the same thing that happened with the Durham 
Support Center. We took a look at the overruns, and we went 
down there twice. Once, we went down with the Agency to do a 
walk-through. Afterwards, our auditors went down and we took a 
look at the pitfalls that occurred as they were building the 
Durham Support Center.
    We identified those issues and wrote a report that is 
available.
    We are optimistic that a lot of the mistakes and a lot of 
the issues on the overruns in Durham, now that they are known, 
should be avoided in any of the planning going forward.
    I have to say we are impressed with the way that Durham has 
progressed. We were impressed with the flexibility, because 
nine months ago, it did not have the capability of redundancy 
that it now will have. That is partly a result of our report in 
which we noted on the disaster recovery that not enough 
resources were put into Durham. They are included now and we 
are looking at that for the future.
    I think the mistakes that were made and valuable lessons 
learned, Durham should help going into the future.
    Ms. BROWN-WAITE. Mr. Chairman, if I could ask one followup 
question to Mr. O'Carroll.
    Mr. O'Carroll, when you say not enough resources, could you 
elaborate a little bit on that? Not enough staff? Help me out 
here.
    Mr. O'CARROLL. Yes. Having made the visit down there, we 
found the facility is in a rural area. It was away from a lot 
of the resources that were needed.
    I think in terms of, as we discussed here, the infringing 
area, they needed a lot of real estate development. It was 
initially interesting.
    When Durham was first selected, it was going to be for 
redundancy, but with funding and other issues, it became a 
secondary site as opposed to being a redundant site.
    I have to say in some ways, it was probably a reduction in 
funding, why the decision was made to make it a secondary site 
as opposed to a redundant site. Now, with more resources 
devoted to it, it is now redundant, so it is going to have that 
capability in January that Mr. Gray mentioned, being able to 
replicate many of the same processes that are done in 
Baltimore.
    On resources, it means you are going to have to make sure 
there will be enough power generators. One of the issues that 
was addressed in the last year is they doubled the amount of 
generator power down there so it could be redundant. That is a 
resource that needs to be looked at in advance.
    Ms. BROWN-WAITE. Are you concerned that all of the 
facilities are along the East Coast?
    Mr. O'CARROLL. We are looking at that. One of our concerns, 
of course, when we heard about a 40 mile range, we thought that 
immediately took off the table the ability to go into other 
states, other areas, other parts of the country.
    It, of course, is a concern that everything is East Coast 
located. However, we are feeling more comfortable that there is 
going to be redundancy in at least a couple of different 
locations, which in a sense is doubling the sense of security 
that there was a few years ago.
    It would be nice if geographically it could be in a 
completely different location, but I have to say, given the 
resources and the opportunities that SSA had, just the fact 
that there are eventually going to be two redundant sites, we 
are less concerned with geographical location.
    Ms. BROWN-WAITE. Mr. Chairman, thank you for your 
understanding, and I yield back the balance of my time.
    Chairman TANNER. Thank you. Does any Member have further 
questions?
    [No response.]
    Chairman TANNER. We want to again thank you all.
    Ms. NORTON. Mr. Chairman, I just want to make sure that Mr. 
Hewell and Mr. Gallagher understand that in light of the 
questions of the Committees, before you move forward on buying 
land, one, the analyses need to be presented to the Committees, 
and two, the Committees need to have fair notice in advance if 
the decision is made to buy land.
    Thank you, Mr. Chairman.
    Chairman TANNER. Thank you, Ms. Holmes Norton.
    There is a concern here. We need to see some data, some 
analyses here. I think you all would agree this is a big deal. 
It is extremely important. It is critical to the Social 
Security delivery system.
    The concern here is that we have access to the analyses 
about what we are doing so that you all and these two 
Committees who have jurisdiction can comfortably face any 
questions about it that we might receive.
    We will be looking forward to your submission.
    Do any of you all have any closing comments?
    [No response.]
    Chairman TANNER. If not, we thank you and the hearing is 
adjourned.
    [Whereupon, at 11:03 a.m., the Subcommittees were 
adjourned.]
    [Questions for the Record follow:]
      Questions from Chairman John Tanner to Mr. Michael Gallagher

[GRAPHIC] [TIFF OMITTED] T3031.012

[GRAPHIC] [TIFF OMITTED] T3031.013

[GRAPHIC] [TIFF OMITTED] T3031.014

[GRAPHIC] [TIFF OMITTED] T3031.015

[GRAPHIC] [TIFF OMITTED] T3031.016

[GRAPHIC] [TIFF OMITTED] T3031.017

[GRAPHIC] [TIFF OMITTED] T3031.018

[GRAPHIC] [TIFF OMITTED] T3031.019

[GRAPHIC] [TIFF OMITTED] T3031.020

[GRAPHIC] [TIFF OMITTED] T3031.021

[GRAPHIC] [TIFF OMITTED] T3031.022

[GRAPHIC] [TIFF OMITTED] T3031.023

[GRAPHIC] [TIFF OMITTED] T3031.024


                                 <F-dash>

     Questions from Sam Johnson to The Honorable Michael J. Astrue

[GRAPHIC] [TIFF OMITTED] T3031.025

[GRAPHIC] [TIFF OMITTED] T3031.026

[GRAPHIC] [TIFF OMITTED] T3031.027

[GRAPHIC] [TIFF OMITTED] T3031.028

[GRAPHIC] [TIFF OMITTED] T3031.029

[GRAPHIC] [TIFF OMITTED] T3031.030

[GRAPHIC] [TIFF OMITTED] T3031.031

[GRAPHIC] [TIFF OMITTED] T3031.032

[GRAPHIC] [TIFF OMITTED] T3031.033

[GRAPHIC] [TIFF OMITTED] T3031.034

[GRAPHIC] [TIFF OMITTED] T3031.035

[GRAPHIC] [TIFF OMITTED] T3031.036

[GRAPHIC] [TIFF OMITTED] T3031.037


                                 <F-dash>
  Questions from Chairman Tanner to The Honorable Patrick P. O'Carroll

[GRAPHIC] [TIFF OMITTED] T3031.038

[GRAPHIC] [TIFF OMITTED] T3031.039

[GRAPHIC] [TIFF OMITTED] T3031.040

[GRAPHIC] [TIFF OMITTED] T3031.041

[GRAPHIC] [TIFF OMITTED] T3031.042

[GRAPHIC] [TIFF OMITTED] T3031.043


                                 <F-dash>
            Questions from Chairman Tanner to Mr. Rob Hewell

[GRAPHIC] [TIFF OMITTED] T3031.044

[GRAPHIC] [TIFF OMITTED] T3031.045

[GRAPHIC] [TIFF OMITTED] T3031.046

[GRAPHIC] [TIFF OMITTED] T3031.047

[GRAPHIC] [TIFF OMITTED] T3031.048

[GRAPHIC] [TIFF OMITTED] T3031.049

[GRAPHIC] [TIFF OMITTED] T3031.050

[GRAPHIC] [TIFF OMITTED] T3031.051

[GRAPHIC] [TIFF OMITTED] T3031.052

[GRAPHIC] [TIFF OMITTED] T3031.053

[GRAPHIC] [TIFF OMITTED] T3031.054

[GRAPHIC] [TIFF OMITTED] T3031.055

[GRAPHIC] [TIFF OMITTED] T3031.056

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
